No. 21-196

In the Supreme Court of the United States
SNH SE ASHLEY RIVER TENANT, LLC; FVE MANAGERS,
INC.; FIVE STAR SENIOR LIVING INC. F/K/A FIVE STAR
QUALITY CARE, INC.; SNH SE TENANT TRS, INC.;
DIVERSIFIED HEALTHCARE TRUST F/K/A SENIOR HOUSING
PROPERTIES TRUST; SNH TRS, INC.; AND CANDY D.
CURE,
Petitioners,
v.
THAYER W. ARREDONDO
AS PERSONAL REPRESENTATIVE OF THE ESTATE OF
HUBERT WHALEY, DECEASED,
Respondent.

CERTIFICATE OF COMPLIANCE
I, Andrew J. Pincus, hereby certify that, according to the word-count tool in
Microsoft Word, the Brief of Argentum and the American Seniors Housing
Association as Amici Curiae In Support of Petitioners consists of 4,973 words,
including footnotes and excluding the sections enumerated by Rule 33.1(d). The Brief
therefore complies with Rule 33.1(g).

Dated: September 30, 2021
Andrew J. Pincus
Mayer Brown LLP
1999 K Street, N.W.
Washington, DC 20006-1101
(202) 263-3000
apincus@mayerbrown.com

